           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
  BY THE CONNECTICUT DISABILITY
     DETERMINATION SERVICES


  February 2008     A-15-07-27176




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      February 29, 2008                                              Refer To:

To:        Manuel J. Vaz
           Regional Commissioner
            Boston

From:      Inspector General

Subject:   Administrative Costs Claimed by the Connecticut Disability Determination Services
           (A-15-07-27176)


           OBJECTIVE
           The objectives of our audit were to evaluate the Connecticut Disability Determination
           Services’ (CT-DDS) internal controls over the accounting and reporting of administrative
           costs, determine whether costs claimed were allowable and properly allocated and
           funds were properly drawn, and assess the general security controls environment. Our
           audit included the administrative costs claimed by the CT-DDS during Federal Fiscal
           Years (FFY) 2005 and 2006.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State, Puerto Rico, and the District of Columbia in accordance
           with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring that adequate evidence is available to
           support its determinations. To assist in making proper disability determinations, each


           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Manuel J. Vaz

DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources. 2

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 3 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 4 For FFYs 2005 and 2006, the
authorized funding as of March 31, 2007 was $18,562,021 and $18,423,390,
respectively.

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the fiscal year, each DDS
submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) to account for program disbursements and unliquidated obligations. 5
The Form SSA-4513 reports expenditures and unliquidated obligations for personnel
service costs, medical costs, indirect costs, and all other nonpersonnel costs.

The Connecticut Department of Social Services is the CT-DDS’ parent agency (PA).
The PA and the CT-DDS offices are both located in Hartford, Connecticut. The PA is
responsible for the draw down of SSA funds to pay expenses of the CT-DDS.
Additionally, the PA distributes indirect cost to the CT-DDS resulting from a cost-
allocation process.

RESULTS OF REVIEW
Overall, the CT-DDS had effective internal controls over the accounting and reporting of
administrative costs with the exception of applicant travel. Also, the FFY 2005 and
2006 administrative costs, as reported by the CT-DDS, were allowable and properly
allocated with the exception of indirect costs. We identified an issue where the draw
down of SSA funds was not matched to obligations incurred in each FFY. We also
identified weaknesses in the general security controls at the CT-DDS.



2
    20 C.F.R. §§ 404.1624 and 416.1024.
3
    31 C.F.R. § 205.1 et seq.
4
    Public Law (P.L.) No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501 and 6503.
5
  SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, “Unliquidated obligations
represent obligations for which payment has not yet been made. Unpaid obligations are considered
unliquidated whether or not the goods or services have been received.”
Page 3 - Manuel J. Vaz

INTERNAL CONTROLS - APPLICANT TRAVEL

We verified the travel invoices in our sample were properly authorized, and travel
vouchers were approved by the supervisor or authorized approving officer. The CT-
DDS relied heavily on the use of taxicabs to transport applicants to their consultative
examinations (CE). The taxicab usage was normal practice for all State programs.

SSA requires that “The cost of travel shall not exceed that of the most economical and
expeditious means of transportation appropriate to the individual's health condition.”6
Therefore, we believe the applicants should be encouraged to “…travel by common
carrier (air, rail, or bus) or privately owned vehicles….” 7 This use of taxicabs meets
SSA’s definition of unusual travel, which includes, but is not limited to, ambulance
services, attendant services, meals, lodging, and taxicabs. 8

Our analysis of the applicant travel invoices resulted in the following.

      •   Six invoices showed there were 94 round-trip charges for taxicab service. Thirty-
          five of the 94 charges were in excess of $100, and, in 1 instance, the round trip
          taxicab fare was $337.

      •   One invoice showed there were 37 round-trip charges for taxicab service.
          Twenty-one of the 37 charges contained a fee for the taxicab driver to wait while
          the CE was performed on the applicant. The taxicab company billed the CT-DDS
          $25 per hour for this service. In one case, the taxicab driver waited for almost
          3 hours.

      •   One invoice showed that the taxicab company billed the CT-DDS $89.75 for
          applicants who failed to appear for transport to the CE.

Although these amounts are immaterial to the SSA funds received by the CT-DDS, the
oversight and control of transportation costs is a vulnerability that should be addressed
because of CT-DDS’ heavy reliance on taxicabs to transport applicants. We brought
this issue to the attention of CT-DDS management, and, as a result of our audit, the CT-
DDS stated that additional controls had been implemented to avoid the scheduling of
CEs outside the area where the applicant resides and to schedule the CE where the
applicant can easily travel. Also, the CT-DDS stated that it instituted several controls to
monitor and address excessive travel invoices before obligating the funds. Additionally,
the CT-DDS is issuing a request for proposal to secure a contract to provide
transportation services for applicant travel at a lower cost.


6
    DI 39525.001(B)(2)(a).
7
    DI 39525.001(A)(5).
8
    DI 39525.001(A)(6).
Page 4 - Manuel J. Vaz

INDIRECT COSTS

The PA concurred with our previous recommendation 9 to remove expenses of
$412,986 charged to the DDS for costs associated with the Cater Eligibility
Management System (EMS). 10 In addition, the PA requested a $21,099 offset for a
State Wide Cost Allocation Plan correction. We concurred with this offset. As a result,
the CT-DDS performed a final allocation of the indirect costs to remove the EMS
expense and credit the State Wide Cost Allocation Plan. As a result of the reallocation
process, the net decrease for indirect cost will now be $195,534 for FFY 2005 and
$196,353 for FFY 2006. SSA should work with the CT-DDS to adjust its indirect costs
on the SSA-4513 by these amounts for FFYs 2005 and 2006.

CASH MANAGEMENT

SSA annually appropriates funds to the CT-DDS to pay obligations incurred in a FFY in
accordance with Federal appropriation law. 11 However, the PA did not match the draw
down of Federal funds to the obligations that arose in that FFY. This practice is
contrary to appropriation law.

The PA, Division of Financial Management and Analysis, exhausts the oldest FFY funds
first, regardless of the expenditure’s obligation date. The current draw down practice is
not based on a Federal fund year obligation, but rather when bills are processed to be
paid. As the expenditures are paid, a draw down is input from the oldest ASAP account
that contains available funding.

The CT-DDS monitors unliquidated obligations by FFY and, using the Form SSA-4513,
reports to the SSA Boston Regional Office reductions in obligations that allow SSA to
reduce the FFY funds authorization level. However, SSA is unable to reduce the FFY
authorization level because the PA has drawn down to the funding limit. Therefore,
SSA’s reductions in funding would cause ASAP to be overdrawn. To remedy this
problem, the PA makes ASAP adjustments known as book entries (BE) to return money
to the overdrawn fund year using current year funds. See Appendix C for BE
adjustments used by the PA to correct funds improperly drawn down. The CT-DDS
needs to ensure ASAP balances accurately reflect FFY activity. This would include
unliquidated obligations and unobligated balances.



9
 Follow-Up Audit: Indirect Costs for the Connecticut Disability Determination Services for the Period
July 1, 2003 through June 30, 2005 (A-15-07-16034), September 28, 2007.
10
   The Cater EMS indirect expense account accumulates costs for a database which contains client
information such as name, address, income, etc., used to determine eligibility for State programs.
11
  31 U.S.C § 1502 “The balance of an appropriation or fund limited for obligation to a definite period is
available only for payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability….”
Page 5 - Manuel J. Vaz

GENERAL SECURITY CONTROLS

As part of our audit, we assessed the general security controls environment of the
CT-DDS. Overall, the general security controls were adequate. However, we identified
areas where improvements can be made in (1) safeguarding personally identifiable
information (PII), (2) relocating fire extinguisher sign indicators and (3) securing the
basement floor communications/electrical room.

Safeguarding of PII

In our review of CT-DDS invoices, which included applicant travel, CE, and medical
evidence of record (MER), we found that there was PII going to vendors. 12 Specifically,
the CT-DDS issued letters of “Payment for Services” to vendors that contained the
applicant’s full name and Social Security number (SSN). Also, as part of the CE
appointment, the applicant may be provided taxicab service to the examination. We
found transportation services, such as taxicab companies, were provided the name and
SSN of the applicant. 13 This is unnecessary disclosure of the applicant’s PII.

In August 2007, we reported this issue to CT-DDS management, which took immediate
corrective action by changing the format to include only the last four digits of the SSN.
Furthermore, the CT-DDS notified the SSA Boston Regional Office of this issue.

Office of the Inspector General staff reported this to SSA’s Chief Information Officer on
August 30, 2007. As a result of this communication, SSA began reviewing the release
of PII by DDSs. On September 19, 2007, the Office of Disability Determinations (ODD)
met with representatives from the Office of Disability and Income Security Programs to
discuss Agency policy regarding nation-wide DDS use of SSNs on correspondence to
third parties. Based on discussions at the meeting, the Office of Disability Programs
agreed to evaluate existing policy, specific to PII, to identify areas that can be changed
or clarified.

As a result of ODD’s initial guidance, many States have changed their processes, but
there are a few issues, particularly changes to national SSA systems, DDS legacy
systems, and parent agency fiscal processing systems, that will take some time to
resolve. ODD will continue to move forward to identify and eliminate potential
weaknesses where possible.



12
  DI 39566.001 Scope of Privacy and Security Subchapter, B. Policy, SSA is required by law to protect
personal information from unauthorized use or disclosure.
13
   DI 39566.100 Disclosure of SSA Information to DDS Units, C. Procedure, 2. Disclosure of SSA
Personal Information, DDS personnel may disclose personal information obtained from SSA in the
following circumstances: a. Disclosure to Third Parties, DDS personnel may disclose personal
information obtained from SSA to third parties, only as necessary, to assist the DDS in making
determinations of disability under the Act.
Page 6 - Manuel J. Vaz

Relocating Fire Extinguisher Sign Indicators

According to POMS, 14 fire extinguishers should be conspicuously located or their
location conspicuously marked. We found fire extinguisher signs need to be added or
moved. We also found signs in obscure locations. Two fire extinguishers were on the
floor but should have been hung on the wall. Addressing these issues will allow the
staff to see better the location of the fire extinguishers.

Securing Basement Floor Communications/Electrical Closet

According to the POMS, 15 utility boxes and utility closets, for example, electrical, gas,
etc., should be kept locked to prevent tampering. The communication pathway should
be as secure as possible. However, we found that the basement floor
communications/electrical closet at the CT-DDS location was not secure since the
Hartford Fire Department (HFD) requires access to the room in an emergency.

The CT-DDS and Connecticut Adult Probation Board (CT-APB) are located in the same
building. This allows both the general staff from the CT-DDS and the CT-APB to take
the elevator down to the basement floor and access the room. Damage or loss of
power could result from unrestricted access to the utility closet. The CT-DDS should
work with the HFD to identify a method where the HFD will have its required access but
also allow the CT-DDS to meet the requirements in POMS.

CONCLUSION AND RECOMMENDATIONS
We recommend SSA:

     1. Work with the CT-DDS to ensure CEs are scheduled within the area they reside,
        and to encourage applicants to travel by common carrier or privately owned
        vehicles in accordance with POMS.

     2. Work with the CT-DDS to decrease the SSA-4513 indirect costs by $195,534 and
        $196,353 for FFYs 2005 and 2006, respectively 16.

     3. Work with the PA to ensure that funds are drawn down consistent with the year in
        which the obligations occurred.

14
  DI 39566.010 DDS Physical Security, B. Procedure - Facility Security, 4. Office Safety, g. Fire
extinguishers should be conspicuously located or their location conspicuously marked.
15
  DI 39566.010 DDS Physical Security, B. Procedure - Facility Security, 1. Perimeter Office Security, k. -
Utility boxes and utility closets, e.g., electrical, gas, etc., should be kept locked to prevent tampering. The
communication pathway should be as secure as possible.
16
  This recommendation replaces recommendation 2 in the Follow-Up Audit: Indirect Costs for the
Connecticut Disability Determination Services for the Period July 1, 2003 through June 30, 2005
(A-15-07-16034) issued on September 28, 2007.
Page 7 - Manuel J. Vaz

   4. Ensure the CT-DDS takes appropriate steps to safeguard PII from unnecessary
      disclosure.

   5. Work with the CT-DDS to correct weaknesses identified in the general security
      controls.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.

STATE AGENCY COMMENTS

The PA agreed with our recommendations. Although there was some disagreement
with the statement that the DDS “… relied heavily on the use of taxicabs to transport
applicants to their consultative examinations (CE),” the PA has instituted additional
internal controls to reduce instances of purchased applicant travel and to limit the
distance of allowable applicant travel. See Appendix E for the PA’s comments.

OIG RESPONSE

We appreciate the comments received from SSA and the PA and believe the responses
and planned actions adequately address our recommendations.




                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Automated Standard Application for Payment Transactions that Indicate
             Connecticut Disability Determination Services Funds Were Not Used in
             the Proper Federal Fiscal Year

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payment
BE         Book Entry
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
Core-CT    Connecticut Central Financial and Administrative Computer System
CT-APB     Connecticut Adult Probation Board
CT-DDS     Connecticut Disability Determination Services
DDS        Disability Determination Services
DI         Disability Insurance
EMS        Cater Eligibility Management System
FFY        Federal Fiscal Year
HFD        Hartford Fire Department
IG         Inspector General
I Levy     I Levy Case Processing System
MER        Medical Evidence of Record
ODD        Office of Disability Determinations
OMB        Office of Management and Budget
PA         Parent Agency
PII        Personally Identifiable Information
P.L.       Public Law
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
SSN        Social Security Number
Treasury   Department of the Treasury
U.S.C.     United States Code




                                    A-1
FORMS
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSA-872    State Agency Obligational Authorization For SSA Disability Programs




                                  A-2
                                                                      Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Connecticut Disability
    Determination Services (CT-DDS) and the draw down of SSA funds.

•   Interviewed staff and officials at the CT-DDS, parent agency (PA) Connecticut
    Department of Social Services, SSA’s Boston Regional Office and Headquarters
    Finance Office.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Reconciled State accounting records to the administrative costs reported by the
    CT-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Federal Fiscal Years (FFY) 2005 and 2006.

•   Examined specific administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by the CT-DDS for FFYs 2005 and
    2006 on the SSA-4513. We used statistical sampling to select expenditures to test
    for documentation of the medical services, personnel, and all other nonpersonnel
    costs.

•   Examined the process and conducted analysis of indirect costs claimed by the
    CT-DDS for FFYs 2005 and 2006.

•   Compared the amount of SSA funds drawn for support of CT-DDS operations to the
    cost records as reported on SSA-4513.

We determined the data provided by CT-DDS used in our audit were sufficiently reliable
to achieve our audit objectives. We assessed the reliability of the data by reconciling
them to the costs claimed on the SSA-4513. We also conducted detailed audit testing
on selected data elements in the electronic data files. Additionally, we relied on the
CT-DDS I Levy Case Processing System (I Levy) records for our consultative
examination (CE) and medical evidence of record (MER) analysis. We believe for this
analysis, the I-Levy records were sufficiently reliable. We performed our audit work at
the CT-DDS and PA offices in Hartford, Connecticut. Work was also conducted in our


                                           B-1
Office of Audit at SSA Headquarters. We conducted fieldwork from July through
November 2007. Our audit was conducted in accordance with generally accepted
government auditing standards.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained electronic records that supported the personnel, medical, and all
other nonpersonnel costs for FFYs 2005 and 2006 for use in sampling. These records
were obtained from the Connecticut central financial and administrative computer
system (Core-CT) and used by the CT-DDS for the preparation of the SSA-4513. For
our indirect cost we analyzed the PA cost allocation process, and the basis for its
distribution of costs to the CT-DDS. We obtained medical service cost records from the
CT-DDS I Levy case management system. We tested and compared the CE fees
assigned by the CT-DDS fee schedule to other State and Federal fee schedules for
FFYs 2005 and 2006.

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We then
selected a random sample of 50 regular employees. We tested CT-DDS payroll records
to ensure it correctly paid employees and adequately documented these payments.

For medical consultant costs, we selected 1 pay period in the most recent year under
review. We reviewed all the consultants in that pay period. We verified that the medical
consultants were paid in accordance with the approved contract.

Medical Costs

We sampled 100 items (50 items from each FFY) from the I Levy data records using a
stratified random sample of medical costs based on the proportion of medical evidence
of record and consultative examination costs to total medical costs claimed.

Additionally, we conducted analytical work to determine whether the CT-DDS rates
exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service.

Indirect Costs

Indirect costs are allocated to the CT-DDS from the Connecticut Department of Social
Services through an automated allocation process. We performed an analysis of the
indirect cost and found that the majority of the allocated costs were Salaries, Fringe
Benefits, the Statewide Cost Allocation, and Cater Eligibility Management System. We




                                          B-2
reviewed the cost to ensure the allocation was in compliance with the approved Public
Assistance Cost Allocation Plan (PACAP) 1, and that the cost allocation fairly and
accurately allocated only allowable expenses to the CT-DDS

All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 items from each FFY) from the
all other nonpersonnel costs category (except for occupancy). Before selecting the
sample items, we stratified the transactions in the nine cost categories. We then
distributed the 50 sample items for each year between categories based on the
proportional distribution of the costs. We conducted a 100-percent review of the
CT-DDS rental costs for FFYs 2005 and 2006.




1
  Public assistance cost allocation plan refers to a narrative description of the procedures that will be used
in identifying, measuring and allocating administrative costs to all the programs administered or
supervised by State public assistance agencies.


                                                     B-3
                                                                                             Appendix C

     Automated Standard Application for Payment
     Transactions that Indicate Connecticut
     Disability Determination Services Funds Were
     Not Used in the Proper Federal Fiscal Year

Parent Agency (PA) Connecticut Department of Social Services Draw Down Activity as a Result of SSA
Regional Office Reducing Funding in FFY 2006


On December 7th, 2006 the SSA Boston Regional office made a decision to reduce the total CT-DDS funding for the FFY 2006 year
from $18,751,935 to $18,423,390. The CT-DDS had reported they did not require the excess funds. However, the PA had already
drawn down $18,751,935. To remedy this shortfall an adjustment was completed by the PA on January 3rd, 2007 to restore the
shortage of the $328,545.
                                                                                                      ASAP
                                                                                                      BE* adjustment
FFY 2006       Prior SSA              Revised               Amount of         Funds                   Dated 1/3/2007
SSA-872**      Fund Balance           SSA Funding           SSA               Drawn from              to move funds from
Adjustment     as of 09/25/06         12/7/2006             Decrease          ASAP by PA              FFY 2007 to FFY 2006
                  $18,751,935           $18,423,390           $328,545              $18,751,935                      $328,545




We found on June 8th, 2007 the SSA Boston regional office reduced the FFY 2006 CT-DDS funding from $18,423,390 to
$18,267,156. The CT-DDS reported they did not require the excess funds. The PA had already drawn the entire $18,423,390. As a
result the CT-DDS ASAP account was overdrawn by $156,234. An adjustment was completed on June 19th, 2007 to restore the
$156,234. The $328,656 and $156,234 should have been retained as excess authorized funds in ASAP to pay pending liabilities that
arose in FY 2006 (which represented funds set aside for unliquidated obligations).

                                                                                                      ASAP
                                                                                                      BE* adjustment
FFY 2006       Prior SSA              Revised               Amount of         Funds                   Dated 6/19/2007
SSA-872        Fund Balance           SSA Funding           SSA               Drawn from              to move funds from
Adjustment     as of 12/07/06         as of 06/08/07        Decrease          ASAP by PA              FFY 2007 to FFY 2006
                  $18,423,390           $18,267,156           $156,234              $18,423,390                      $156,234

* Book Entry
**SSA-872 - State Agency Obligational Authorization for SSA Disability Programs
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      February 13, 2008                                                     Refer To:   S2D1G5/2008-
                                                                                 9787

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Administrative Costs Claimed by the Connecticut Disability determination Services (A-15-07-
           27176) (Your memo dated 1/11/08) - Reply

           We have reviewed the draft report with the results of an Office of Inspector General audit of the
           administrative costs claimed by the Connecticut DDS during Federal Fiscal Years 2005 and 2006.

           We concur with each of the findings and will work with the Connecticut DDS and state to resolve
           all findings.
                        Appendix E

State Agency Comments
E-1
E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Acting Director, Financial Audit Division, (410) 965-0433

   Mark Meehan, Acting Audit Manager, (410) 966-7147

Acknowledgments

In addition to those named above:

   Sig Wisowaty, Auditor-in-Charge
   Rick Wilson, Senior Auditor
   Florence Wolford, Senior Auditor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-07-27176.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
